        AUDIT REPORT

     COSTS CLAIMED BY THE
  STATE OF OHIO, DEPARTMENT
    OF NATURAL RESOURCES,
  UNDER FEDERAL AID GRANTS
    FROM THE U.S. FISH AND
    WILDLIFE SERVICE FROM
      JULY 1, 1999 THROUGH
        OCTOBER 1, 2001




DECEMBER 2002   Report No. 2003-E-0007
                                                                           X-GR-FWS-0011-2003

                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




                                                                               December 23, 2002

                                    AUDIT REPORT
Memorandum

To:      Director,
         U.S. Fish and Wildlife Service

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Final Audit Report on Costs Claimed by the State of Ohio, Department of Natural
         Resources, under Federal Aid Grants from the U.S. Fish and Wildlife Service from
         July 1, 1999 through October 1, 2001 (No. 2003-E-0007)

                                        Introduction
         This report presents the results of our audit of costs claimed by the State of Ohio,
Department of Natural Resources, Division of Wildlife (Wildlife Division) and the Division of
Watercraft (Watercraft Division) under Federal Aid grants from the U.S. Fish and Wildlife
Service (FWS) for the period July 1, 1999 through October 1, 2001.

Background and Scope
          The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize
FWS to provide Federal Assistance grants to states to enhance their sport fish and wildlife
programs. The Acts provide for FWS to reimburse the states up to 75 percent of the eligible costs
incurred under the grants. The Acts specify that state hunting and fishing license revenues cannot
be used for any purpose other than the administration of the state’s fish and game agencies. In
addition, FWS also provides grants to the states under the Clean Vessel Act and the Endangered
Species Act.

          On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to perform a financial and compliance audit of Federal Assistance grants to
the State of Ohio. The objective of our audit was to evaluate: (1) the adequacy of each Division’s
accounting system and related internal controls; (2) the accuracy and eligibility of the direct and
indirect costs claimed under the Federal Aid grant agreements with FWS; (3) the adequacy and
reliability of the Wildlife Division’s hunting and fishing license fees collection and disbursement
process; and (4) the adequacy of the Wildlife Division’s purchasing system and related internal
controls. The audit was also to include an analysis of other issues considered sensitive and/or
significant to FWS. The audit work at the Wildlife Division covered claims totaling
approximately $23 million on FWS grants that began after June 30, 1999, and were open during
the State’s fiscal years ended June 30, 2000 and 2001. The audit work at the Watercraft Division
covered claims totaling approximately $143,000 on an FWS grant under the Clean Vessel Act
that began on October 1, 1999, and was open during the grant agreement period from October 1,
1999 to October 1, 2001 (see the Appendix).

          Both Divisions use the State of Ohio’s Central Accounting System (CAS) to provide
accounting for budgeting, personnel, revenues and expenses. In addition, the Wildlife Division
uses a Time and Activity Reporting System (TARS) to record time worked by all of its
employees. Information from CAS and TARS is used to prepare Federal Aid reimbursement
requests. Fishing and hunting license revenues, reimbursements under the Federal Aid grants,
other associated revenues, and all Division expenditures are maintained and accounted for in
separate funds.

          We did not perform reviews of internal controls of the State’s Central Accounting
System because the State’s Office of the Auditor performed annual audits of CAS in fiscal years
2000 and 2001. Also, we relied on the reviews of purchasing and payroll performed by the
Department’s Office of Internal Audits. A single audit report of the State of Ohio issued on
November 17, 2000 did not include the Department or either Division in the scope of its review.
Consequently, we did not rely on the single audit to limit our review. During our audit, we
evaluated the adequacy of internal controls over each Division's operations, including the
Wildlife Division’s TARS, and found that the Wildlife Division needed to implement additional
controls over (1) income earned on real property purchased or maintained with Federal Aid
funds; (2) accounting for in-kind match and the use of hunting and fishing license revenues; and
(3) reconciliation of TARS to the State’s official accounting records. These matters are discussed
in the Results of Audit section of the report. Our recommendations, if implemented, should
improve the internal controls in these areas.

          Our audit was performed in accordance with the "Government Auditing Standards,"
issued by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the circumstances.
Our tests included an examination of evidence supporting the amounts of salary costs charged by
the Wildlife Division to the grants for one quarter during each year of the two-year review period
and interviews with employees and their supervisors to ensure that all personnel costs charged to
the grants were supportable; an examination of other selected costs claimed by each Division
during the period of our review; and a review of the Wildlife Division's use of fishing and
hunting license revenues to determine whether the revenues had been used for program purposes.
We did not evaluate the economy, efficiency, and effectiveness of either Division’s operations.

         Our audit was performed at the Ohio Division of Wildlife headquarters in Columbus,
Ohio, area offices in Columbus and Athens, wildlife management areas near Athens, Canton,



                                                 2
Coshocton, Wooster and Zanesville, and the state hatchery and Inlands Fisheries Unit at Hebron.
We contacted personnel at the Department’s Division of Real Estate and Land Management in
Columbus to obtain information regarding oil and gas leases on wildlife management areas, and
visited the Ohio State University in Columbus to review sub-grant expenses claimed by the
University’s Research Foundation and Aquatic Ecology Laboratory. We also visited the Division
of Watercraft in Columbus to review Clean Vessel Act grant expenditures.

Prior Audit Coverage
           During the past 5 years, neither the Office of Inspector General nor the General
Accounting Office has issued any reports on the State of Ohio's fish and wildlife program
activities.

                                     Results of Audit
         Our review disclosed the following:

   •   The eligibility for reimbursement of costs totaling $362,375 claimed by the Wildlife
       Division for volunteer labor was questioned because the costs were not supported by
       adequate time and attendance records.

   •   The Wildlife Division did not report program income of at least $94,172.

   •   The Wildlife Division used hunting and fishing license revenues of approximately
       $261,000 for payments in lieu of local real estate taxes during fiscal years 2000 and 2001,
       while other land management agencies in the Department do not make similar payments.

   • The Department’s certification of paid hunting and fishing licenses may not be accurate
       because the system used to eliminate duplicate license holders does not contain the
       necessary information to perform the task and an alternate method also used to eliminate
       duplicate license holders is based on an out-of-date study.

   •   The Wildlife Division needs to periodically reconcile its Federal Aid payroll records to
       the official state accounting records to ensure that all payroll charges are properly
       accounted for.

A. QUESTIONED COSTS

          We questioned a total of $362,375 claimed by the Wildlife Division for volunteer labor
used as in-kind match because the charges were based on unsupported estimates or the
supporting records had apparently been accidentally destroyed. For in-kind contributions, the
Division obtained about 136,804 hours of volunteer labor valued at about $2 million during
fiscal years 2000 and 2001 for eight activities related to hunter and aquatic education. From that
amount, the Wildlife Division claimed $755,720 for volunteer labor related to the Hunter
Education ($600,199) and Aquatic Education ($155,521) programs, and plans to claim an


                                                3
additional $155,000 for its fiscal year 2001 Aquatic Education program. Also, the Division, at
this time, decided not to claim or present for audit 53,886 hours valued at $803,979.

       The Code of Federal Regulations (43 CFR 12.64 (b)(6)) states that in-kind contributions
must be verifiable from the grantee’s records; the records must show how the value placed on the
in-kind contributions was derived; and volunteer services, to the extent feasible, should be
supported by the same method that the organization uses to support the allocability of regular
personnel costs. The Wildlife Division requires its employees to complete an activity report
accounting for each hour spent during an 8-hour day and 40-hour workweek. However, of the
$755,720 claimed, we found that $362,375 was not substantiated by adequate documentation
under the Hunter ($260,954) and Aquatic ($101,421) Education programs.

       Hunter Education - $260,954

        The Wildlife Division claimed $260,954 as in-kind match during fiscal year 2000. The
claim was based on a memorandum that stated that the Wildlife Division’s Outdoors Skills
section obtained 24,174 hours of volunteer labor valued at $360,675. We could not locate any
activity reports to support the volunteer labor. Division personnel stated that warehouse
personnel accidentally destroyed the in-kind records for the fiscal year 2000 Hunter Education
Program. As a result, we questioned the $260,954 claimed under Grant W-134-P-6 because of
the lack of adequate support. Also, we found that the in-kind match of $339,245 claimed for
fiscal year 2001 was adequately supported.

       Aquatic Education - $101,421

        The Wildlife Division claimed $155,521 as in-kind match during fiscal year 2000. The
claim was based on a memorandum that stated that the Division's Outdoors Skills section
obtained 12,350 hours of volunteer labor valued at $184,262 for activities of the Hooked on
Fishing (Angler Program and Workshops) and a Small Grants program. We examined the time
reports for each activity and concluded that 3,626 hours valued at $54,100 had proper
documentation, and the remaining 8,724 hours (valued at $130,162) included in the
memorandum were unsupported. Therefore, $101,421 ($155,521 less $54,100) of the $155,521
claimed under Grant F-69-P-6 were unsupported. The results of our analysis follow:

   •   The activity reports used by the Workshops contained sufficient information to support
       the time charged. We accepted 1,488 hours, valued at $22,201 (instead of 1,500 provided,
       because of a math error).

   •   The Angler Program used two different reports to document volunteer hours. We
       determined that both reports were inadequate. One report had only two lines of
       information – one for a primary instructor showing total hours and another line showing
       total hours by all other volunteers. The other report had only one line for a primary
       instructor showing total hours. The reports either did not contain the names of the
       volunteers or the days or the hours they worked. We accepted 2,138 hours (of 7,987
       provided) valued at $31,899, which generally consisted of the time shown for the primary
       instructors.



                                                4
   •   The activity reports used by the Small Grants volunteers were not acceptable because
       time charges were based on unsupported estimates. The report for each grant provided a
       line at the bottom of the form to show the estimated total hours spent by all the
       volunteers. For example, organizers of one popular event showed an estimate of 1,200
       hours (valued at $17,904) of volunteer labor. The report did not contain the names of the
       volunteers or the days or the hours they worked. We did not accept any of the 2,863
       hours provided.

        The Division plans to claim an estimated $155,000 of in-kind match for fiscal year 2001
Aquatic Education after resolution of this audit. The proposed claim is based on a memorandum
that stated that the Division's Outdoors Education section obtained 13,397 hours of volunteer
labor (valued at $199,883) for activities of the Hooked on Fishing (Angler and Workshops) and a
Small Grants program. We reviewed the proposed claim of $155,000 and determined that
Aquatic Education was able to support only $55,995 of in-kind match, as follows:

   •   The activity reports used by the Workshops contained sufficient information to support
       time charged. We accepted all 1,350 hours valued at $20,142.

   •   As in fiscal year 2000, the Angler Program used reports that were generally not adequate
       to document volunteer hours. We accepted only 2,403 hours (of 8,788 provided) valued
       at $35,853.

   •   As in fiscal year 2000, the activity reports used by the Small Grants volunteers for
       Aquatic Education were not acceptable because time charges were based on unsupported
       estimates. We did not accept any of the 3,259 hours provided valued at $48,624.

       Overall, we concluded that the Division cannot adequately support $99,005 of the
estimated $155,000 ($155,000 - $55,995) it plans to claim under Grant F-69-P-6 for fiscal year
2001.

        Finally, we did not review records for 2 of the 5 Aquatic Education program activities
(the Aquatic Project – Wild Activities and the Aquatic Project – Wild Training) because the
Division had not provided an adequate accounting of the total volunteer hours contributed.
Summary records for both fiscal years 2000 and 2001 totaled 53,886 hours valued at $803,979 to
either assemble educational packets distributed to program participants or attend Education
Program training classes. However, the records did not include sufficient detail to provide
adequate assurances that time spent on Aquatic – Wild Activities and Aquatic Project – Wild
Training, did not duplicate the time recorded on the other Aquatic Education program activities.

Recommendations

We recommend that FWS:

       1. Resolve the $362,375 of questioned costs claimed by the Wildlife Division for in-kind
volunteer labor.




                                               5
         2. Ensure that the Wildlife Division develops adequate procedures to document volunteer
hours.

       3. Require the Wildlife Division to maintain adequate support documentation for all in-
kind match. Reimbursement requests should explain how the match was calculated and what
records were used. Summary records should be traceable to source records.

        4. Consult with the Wildlife Division concerning the proposed claim of $155,000 for
fiscal year 2001 for Aquatic Education (Grant No. F-69-P-6) and ensure that the amount claimed
is adequately supported.

Wildlife Division and U.S. Fish and Wildlife Service Responses

       The Division did not agree with our conclusions that the record keeping for the in-kind
contributions was inadequate, as follows:

         Hunter Education - Questioned Costs - $260,954. The response stated that the detail
         records of in-kind contributions for the fiscal year 2000 Hunter Education volunteers
         were unknowingly sent to a warehouse for retention and later accidentally destroyed. The
         officials believed that the summary records that were not destroyed provide sufficient
         documentation. To prevent reoccurrences, the Wildlife Division plans to add Hunter
         Education records to the state’s record retention list.

         Aquatic Education - Questioned Costs - $101,421. The response stated that during 1992,
         the FWS Regional Office allowed the use of a final report showing total hours as
         sufficient documentation for volunteer labor. Although the Division requires individual
         timesheets showing daily activity by its employees, the Division believes a similar
         requirement by 43 CFR 12.64 is not feasible for volunteer labor.

         Small Grants - Questioned Costs - (Included Above). The Wildlife Division officials
         stated that during 1999, FWS Regional officials approved the final report format and
         timekeeping subsequently questioned by the auditors and therefore, the State should not
         be penalized. However, the Division officials agreed that the reporting of Small Grant
         volunteer labor can be improved, and they are in the process of changing the final reports
         to record volunteer labor for events under the Small Grants program.

       The FWS stated that the $260,954 of questioned costs for the Hunter Education Program
should not be upheld for the following reasons: the audit found that the Wildlife Division had
adequate documentation for the other fiscal year; the Division has historically incurred in-kind
contributions equal to the questioned amount; the Division entered in-kind hours into its hunter
education database; and the Division satisfactorily explained how the records were inadvertently
destroyed.

       The FWS agreed with the findings and recommendations for the Aquatic Education and
Small Grants programs. FWS stated that when the Aquatic Education program significantly
improves its accounting and summary records of in-kind labor costs on a go-forward basis, the



                                                 6
FWS may consider an option to pay back the $101,421 questioned costs through excess in-kind
match on future grants. The FWS also suggested that the Division add fringe benefits to the
labor rate.

Office of Inspector General Comments

         We consider the four recommendations resolved but not implemented. However, we do
not agree with the FWS suggestions to allow the use of future excess in-kind match to pay back
current questioned costs and to include fringe benefits with the labor rates of employees of
another organization who furnish free labor because these actions would be contrary to the Code
of Federal Regulations and/or OMB Circular A - 87. Specifically, the regulations (43 CFR 12.64
(a) (2)) indicate that the value of third party in-kind contributions must be applicable to the
period to which the cost sharing or matching requirement applies. Furthermore, OMB Circular
A –87, Attachment B, Section 42 states, “Any excess costs over the Federal contribution under
one award agreement are unallowable under other award agreements.” Regarding fringe benefits,
the regulations (43 CFR 12.64 (c) (2)) state that the valuation of labor provided by other
organizations should not include fringe benefits. In addition, to ensure that the labor rates used
are appropriate, we suggest that the revised documentation include the occupation of the
volunteer and the type of services provided.

B. Program Income

        We found that the process used by the Department to account for revenue collections did
not identify all income derived from grant-supported activities. In that regard, we identified at
least $94,172 of unreported program income.

        The Code of Federal Regulations (43 CFR 12.65 (a), (b) and (g)) requires that grantees
identify and deduct from program outlays any income generated from grant-supported activities,
unless the grant agreement or regulations specify another alternative. The Wildlife Division’s
revenue officer told us that Division personnel are supposed to identify applicable program
income by using a Federal Aid project number when they process revenue checks involving oil
and gas royalties, cooperative farming cash payments, leases and timber sales. If the revenue
received is not program income, personnel are supposed to omit the Federal Aid project number
and complete a memorandum that identifies and explains why the amount was excluded. The
revenue officer generates a list of Federal Aid program income from official state revenue
receipts based on project numbers.

       We determined that collections recorded under Revenue Class 87 – Other
Reimbursements, and Revenue Class 89 – Rentals and Miscellaneous Revenues accounted for
most of the revenues from wildlife management areas that were acquired or maintained with
Federal Aid funds. Collections from these classes totaled about $1,240,4891 during fiscal years
2000 and 2001, of which $736,970 was reported as program income. The revenues in these
accounts were generated from royalties, leases, timber sales, compensation for equipment

1
 We excluded grant reimbursements and quarters rental totaling about $1.9 million, which are not considered
program income.


                                                        7
damage and destruction of fish or habitat, and cooperative management agreements on wildlife
management areas receiving Federal Aid grant funds.

        To determine whether the remaining $503,519 ($1,240,489 less $736,970) included
unreported program income, we analyzed the official revenue receipts for oil and gas royalties
and crop sales from cooperative farming leases. We found that Division personnel did not assign
a Federal Aid project number to 93 receipts totaling $237,529. We selected a judgmental (higher
dollar value) sample of 18 of the 93 unmarked royalty and crop receipts that totaled $187,760,
and we concluded that 11 receipts totaling $94,172 should have been reported as program
income under Grant W-134-P-6. Based on the results of our review of $187,760 of the $503,519
of unreported income, we believe the $315,759 difference ($503,519 less $187,760) should be
analyzed and applicable program income reported to the FWS, and if necessary, to other Federal
programs.

Recommendations

We recommend that FWS:

       1. Require the Wildlife Division to report and credit the $94,192 in program income.

      2. Require the Wildlife Division to investigate the remaining $315,759 of unreported
income, and if appropriate, credit any additional program income to the Federal Aid grant.

        3. Require the Division to develop a system to identify and record the receipt of grant
related program income and document the exclusion of income that is not grant related. In
addition, the Division should provide training to field personnel on the implementation of the
system.

Wildlife Division and U.S. Fish and Wildlife Service Responses

        Wildlife Division officials agreed to report and credit the $94,192 program income and
investigate the remaining unreported income, and if necessary, credit it to the Federal Aid grant.
They also stated that they are working to develop a system to track program income as it is
reported from the district offices and provide appropriate training to field personnel on how to
use the new tracking system.

       The FWS agreed with the recommendations.

Office of Inspector General Comments

       We consider the three recommendations resolved but not implemented.

C. Use of Hunting and Fishing License Revenues
       The Code of Federal Regulation (50 CFR 80.4) states that revenues from license fees
paid by hunters and fishermen shall not be diverted to purposes other than administration of the


                                                 8
State fish and wildlife agency. U.S. Fish and Wildlife Policy Memorandum 84-3 allows license
revenues to be used for payment in lieu of taxes, provided the requirement is applied uniformly
to federally assisted properties and other properties acquired by the grantee. Within the
Department, however, only the Division of Wildlife was required to make payments in lieu of
taxes for land owned by the State and administered by the Division. Specifically, the Division
used fishing and hunting license funds of approximately $261,000 for payments in lieu of local
real estate taxes during fiscal years 2000 and 2001.

        The Wildlife Laws of the State of Ohio (Ohio Revised Code 1531.27) requires the
Wildlife Division to make an annual payment in lieu of taxes to county governments for lands
owned by the State and administered by the Division. The payment is based on 1 percent of the
assessed value of the unimproved land at the time it was acquired, and is used for school
purposes within the school districts where the land is located. We found that the Wildlife
Division is the only unit in the Department that is required to make annual payments in lieu of
taxes. Ohio Revised Code 1531.27 does not apply to the other Department land acquisition
agencies such as the Division of Parks and Recreation or the Division of Forestry. Official state
accounting records showed that the Wildlife Division paid approximately $261,000 during fiscal
years 2000 ($125,000) and 2001 ($136,000) as payments in lieu of taxes from the fishing and
hunting license revenues. Division officials could not explain why the Wildlife Division is the
only Department entity required to make payments in lieu of taxes.

        The Department needs to provide FWS with a sufficient explanation as to why payments
in lieu of taxes are assessed only to the Wildlife Division.

Recommendation

        We recommend that FWS determine whether the payments in lieu of taxes represent a
diversion of fishing and hunting license revenues, and if so, resolve the diversion according to
the requirements of 50 CFR 80.4 (d).

Wildlife Division and U.S. Fish and Wildlife Service Responses

       The Wildlife Division officials stated that the payments in lieu of taxes are eligible
because the payments are required by statute and that OMB Circular A-87 identifies taxes as an
allowable grant cost.

        The FWS determined that OMB Circular A-87 does not apply to the expenditure of
license revenues, and agreed with the finding. Although the Division did not justify why they are
the only agency paying the tax, FWS stated that, pending a review of the States response, it may
request that the issue be referred to the FWS Joint Policy Task Force for further delineation and
clarification.

Office of Inspector General Comments

        We consider the recommendation unresolved. The FWS needs to identify the action(s)
that will be taken to resolve this issue.


                                                 9
D. License Certification

        The Code of Federal Regulations (50 CFR 80.10 (c) (5)) states that an individual shall not
be counted more than once as a hunting or fishing license holder. The Federal Aid Manual (522
FW 2 Part 2.2 (1)) recommends that surveys to determine and adjust for duplicate license holders
be conducted every five years or when there is a change in the license structure. The Division’s
annual license certifications for calendar years 1999 and 2000 included a 3.6 percent adjustment
to hunting license sales and a 7.9 percent adjustment to fishing license sales to eliminate the
duplicate counting of individuals who purchased both temporary and annual licenses. The
adjustments, however, were based on a 1994 survey. In addition, the fishing license structure
changed in 1998, yet a new survey was not conducted to measure the impact of the new license
on the annual certifications.

         In 1999, the Division adopted a point of sale system for reporting license sales and
collecting sales revenue. Division officials believed that new or updated surveys were no longer
necessary because each purchaser of a license would have his or her driver’s license entered into
the system. An internal program would match licenses and prevent counting of the same driver’s
license more than once. However, we found that the point of sale system does not record a
driver’s license for every purchase. When an individual does not produce a driver’s license, the
system assigns the individual a unique number known as a PLN number and completes the sale.
If this individual purchases another license, and does not present the old license (with its PLN), a
new PLN number is assigned and the sale is completed. Since there is no reference number to
match prior sales, the system has no way to prevent a duplicate license count.

Recommendation

       We recommend that FWS ensure that the Wildlife Division resolves the potential
duplicate license count resulting from the use of PLN numbers in the point of sale system.

Wildlife Division and U.S. Fish and Wildlife Service Responses

        Wildlife Division officials could not provide a timetable for implementation of a unique
identifier to allow the point of sale system to properly eliminate duplicate license holders. They
stated that until then, they plan to use software that will recalculate the percentage of duplicate
hunting and fishing license buyers through a process of “data cleansing and duplicate removal
exercises.”

       The FWS agreed with the finding and recommendation and will consider the finding
resolved when the proposed new computer module can identify and remove duplicates.

Office of Inspector General Comments

       We consider the recommendation unresolved until FWS establishes a timetable to have
the new computer module implemented.



                                                 10
E. Accounting Records
       The Wildlife Division did not reconcile Federal Aid payroll records to the official state
accounting records to ensure that all payroll charges were properly accounted for. The Wildlife
Division uses the State of Ohio’s Central Accounting System (CAS) to provide accounting for
budgeting, personnel, revenues and expenses, and uses a Time and Activity Reporting System
(TARS) to record time worked by all of its employees. Information from CAS and TARS is used
to prepare Federal Aid reimbursement requests, but we found that the TARS system did not
provide a control total to reconcile its in-house results to the CAS payroll summaries.

        Division computer specialists programmed a special query to allow us to compare total
TARS payroll to the CAS total and determine that the variance between the two systems during
fiscal years 2000 and 2001 was less than two tenths of one percent. We believe the payroll
control total should be made a permanent feature of the TARS system.

Recommendation

       We recommend that FWS require the Wildlife Division to reconcile the payroll control
data with the official State payroll records on a quarterly basis.

Wildlife Division and U.S. Fish and Wildlife Responses

        Wildlife Division officials agreed to develop and implement a report that will provide the
control data necessary to reconcile TARS payroll data with State Payroll records on a quarterly
basis.

       The FWS agreed with the recommendation.

Office of Inspector General Comments

       We consider the recommendation resolved but not implemented.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with
written comments by March 24, 2003 regarding the status of the FWS Corrective Action Plan. If
you have any questions regarding this report, please contact Mr. Gary Dail, Federal Assistance
Audit Coordinator, at (703) 487-8011.


 cc: Regional Director, Region 3
      U.S. Fish and Wildlife Service




                                               11
                                                                   APPENDIX


            OHIO DEPARTMENT OF NATURAL RESOURCES
            FINANCIAL SUMMARY OF REVIEW COVERAGE
               JULY 1, 1999 THROUGH OCTOBER 31, 2001

  Grant        Grant       Claimed     Questioned                Federal
 Number       Amount        Costs        Costs       Balance      Share
F-69-P-6     $19,716,454 $14,003,853      $101,421 $13,902,432 $10,426,824
W-134-P-6     10,517,236   8,979,245       260,954   8,718,291   6,538,718
V-1-2           291,120      143,072            0      143,072     107,304
   Total     $30,524,810 $23,126,170      $362,375 $22,763,795 $17,072,846




                                     12
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
